No.19-417
IN THE

EMW WOMEN'S SURGICAL CENTER, P.S.C., ON BEHALF OF ITSELF, ITS STAFF, AND ITS
PATIENTS; ERNEST MARSHALL, M.D., ON BEHALF OF HIMSELF AND HIS PATIENTS;
ASHLEE BERGIN, M.D., ON BEHALF OF HERSELF AND HER PATIENTS; TANYA FRANKLIN,
M.D., ON BEHALF OF HERSELF AND HER PATIENTS,

Petitioners,

V.

ADAM MEIER, IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
KENTUCKY CABINET FOR HEALTH AND FAMILY SERVICES,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Kimberly A. Parker, a member of
the bar of this Court, certify that the accompanying Brief for Amici Curiae American
College of Obstetricians and Gynecologists, The American Medical Association, The
North American Society for Pediatric and Adolescent Gynecology, The American
College of Osteopathic Obstetricians and Gynecologists, and The American Academy of
Family Physicians Supporting Petitioners contains 5,859 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.l(d).
Executed on October 28, 2019.

K&~~(~di--P

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
kimberly.parker@wilmerhale.com

